App. 1
APPENDIX 1
List of Lower Court Cases
Approved In Snyder v. Marks
1.

Howland v. Soule, 12 F. Cas 743 (Cir. Ct. D.
Cal.)(1868)
Facts and Question Presented: Excise tax. Suit
against collector. Assessor had assessed fraud penalties for false returns. Taxpayer alleged assessor
acted ultra vires. Did AIA apply when assessment
was illegal?
Holding and Rationale: Yes. Otherwise, everyone
would seek injunctions. “A person not pleased with
a tax will readily conclude that it is illegal or erroneous, and a suit for injunction follows. His neighbor soon catches the infection, and the result
would be that the wheels of government would be
stopped by injunction and revenue would cease to
flow into its treasury.” 12 F. Cas. at 744.

2.

Pullan v Kinsinger, 20 F. Cas. 44 (Cir. Ct. S.D.
Ohio)(1870)
Facts and Question Presented: Excise tax. Suit
against collector. In obedience to reporting requirements, taxpayer reported 72 hour cycle for
distillation on return. Assessor imposed much
larger tax based on 48 hour cycle. Did AIA apply
when assessment was illegal?
Holding and Rationale: Yes. To the extent AIA restates equity, equity would prevent such suit. To
the extent AIA goes beyond equity, it protects the
system of remedies, just as for customs: “Can it be
supposed that after congress has carefully constructed a revenue system, with ample provisions

App. 2
to redress wrongs, that it intended to give the taxpayer and importer a further and different remedy?. . . . the mischief which would result, forbids
the idea that any other than the prescribed modes
are open for the redress of wrongs.” 20 F. Cas. at
49.
3.

Robbins v. Freeland, 20 F. Cas. 863 (Cir. Ct. E.D.
NY)(1871)
Facts and Question Presented: Income tax. Suit
against collector. Assessment alleged based on an
unconstitutional statute. Did AIA bar suit when
refund remedy was not available to taxpayer?
Holding and Rationale: Yes. No rationale given.
Government counsel’s only reported argument
was citation to Pullan.

4.

Delaware R. Co. v. Prettyman, 7 F. Cas. 408 (Cir. Cr.
D. Del)(1872)
Facts and Question Presented: Income tax. Suit
against collector. Assessment on dividends. Did
AIA apply when assessment was of a tax that
other courts had judged to be illegal?
Holding and Rationale: Yes. Assessor had power to
make the determination of liability. Once it “be admitted that the United States assessor had jurisdiction to inquire and determine on the propriety
of making these assessments . . . the assessments
and proceedings thereon are not nullities and cannot be resisted by injunction process.” 7 F. Cas. at
410. Dispute over legality of tax must be resolved
through system of remedies created by Congress
and “cannot be inquired of and determined in the
form of suit now before the court.” Id. at 413.

App. 3
5.

U. S. v. Black, 24 F. Cas. 1151 (Cir. Ct. S.D.
NY)(1874)
Facts and Question Presented: Excise Tax. Suit
against taxpayer’s sureties to recover increase in
tax based upon reassessment. Sureties defense
was that reassessment was illegal. Did the AIA
bar non-taxpayer sureties from raising this defense?
Holding and Rationale: Yes. Protection of the system requires AIA bar to extend to sureties: “It is
as important for the government to receive payment promptly from the sureties as from the principal.” 24 F. Cas. at 1154. Sureties have same
refund remedy as taxpayer.

6.

Kissinger v. Bean, 14 F. Cas. 689 (Cir. Ct. E.D.
Wisc.)(1875)
Facts and Question Presented: Excise Tax for over
$236,000. Suit against collector. Taxpayer alleged
assessment illegal because he was mere shareholder of corporate distiller and not proper person
liable for tax. Did the AIA bar suit when taxpayer
would not be able to pay and sue for refund?
Holding and Rationale: Yes. AIA is part of remedial scheme. “It does not, however, take away other
remedies or all remedies. It simply deprives a
party of the power to prosecute a suit for the purpose of enjoining the assessment and stopping the
collection of the tax.” 14 F. Cas. at 690. Further, the
inability to pay in the present case did not change
the result: “in passing upon a question of this character, the court must be guided by general principles, and cannot be controlled by exceptional
cases.” Id. Finally, the alleged illegality made no

App. 4
difference unless the taxpayer could show to a certainty that the assessor acted without authority.
7.

U. S. v. Pacific R.R., 27 F. Ca. 397 (Cir. Ct. E.D.
Mo.)(1877)
Facts and Question Presented: Excise tax. Suit
against taxpayer for assessed taxes. Taxpayer
claims U.S. debt to it. Did the AIA prevent taxpayer from raising equitable set-off as defense?
Holding and Rationale: Yes. Otherwise, everyone
might do it. AIA applies to the system of taxation:
“The principle involved is this: That by setting up
other debts, and cross-actions and counter-claims
against the government, it would, in effect, be
placing the existence of the government at the
mercy of any person who chose to set up his right
in this way, and thus hinder the collection of the
taxes.” 27 F. Cas. at 398.

8.

Alkan v. Bean, 1 Fed. Cas. 418 (Cir. Ct. E.D.
Wisc.)(1877)
Facts and Question Presented: Excise tax. Suit
against Collector. Collector sought to enforce tax
lien on property. Owner sued to enjoin seizure and
sale because owner was not the taxpayer but was
an innocent purchaser. Did the AIA bar a suit by
person other than the taxpayer
Holding and Rationale: Yes. “The scope of this section is not limited in terms to the party taxed. The
evident purpose of the section is to prevent any interference with the prompt and regular collection
of the revenue.” 1 Fed. Cas. at 421 (citations omitted).

App. 5
9.

Kensett v. Stivers, 10 F. 517 (Cir. Ct. S.D.
NY)(1880)(written by then Circuit Judge Blatchford who, three years later as Justice Blatchford,
wrote the opinion in Snyder v. Marks)
Facts and Question Presented: Excise tax for over
$233,000. Suit against Collector. Taxpayer alleged
assessment illegal because she was innocent
spouse of ex-husband taxpayer who had used her
name without her knowledge or consent. Court
found she did not know of the tax until 15 years
after assessment when collection commenced
against her property. Further, court found “Her
grievance cannot be remedied by any action at law,
as she cannot pay the large amount of the tax and
sue to recover it back.” 10 F. at 520. Court further
found that collection had been made and continued to be made from other parties also liable. Under these circumstances, did AIA bar her suit to
enjoin collection from her property?
Holding and Rationale: Yes. Court reviewed all
prior cases. Linked AIA to refund remedy. Immaterial that plaintiff here could not make use of the
remedy. Such was not an exception to the AIA.

App. 6
APPENDIX 2
Federal Tax Revenues 1871-1874
Customs Revenue

Internal Revenue

18711

$206,270,408.05

$143,098,153.63

18722

$216,370,286.77

$130,642,177.72

18733

$188,089,522.70

$113,729,314.14

18744

$163,103,833.69

$102,409,784.90

1873 and 1874 collections from internal revenue
continued to provide the same 37-40% of the overall
revenue as in 1871 and 1872. Both customs and internal revenue dropped . . . in about the same proportions.
Much of the drop was due to the Panic of 1873. See
Annual Reports of the Secretary of the Treasury on the
State of the Finances for the Year 1873, at XIII-IX; and
for Year 1874, at XVII-XVIII.
1

Sec’y of the Treasury, Annual Report of the Secretary of the
Treasury on the State of the Finances for the Year 1871, at V
(1871).
2
Sec’y of the Treasury, Annual Report of the Secretary of the
Treasury on the State of the Finances for the Year 1872, at IV
(1872).
3
Sec’y of the Treasury, Annual Report of the Secretary of
the Treasury on the State of the Finances to the Forty-Third Congress, First Session, at III (1873). The Panic of 1873 caused a
considerable decrease in revenue. Id.
4
Sec’y of the Treasury, Annual Report of the Secretary of the
Treasury on the State of the Finances for the Year 1874, at III
(1874).

App. 7
APPENDIX 3
Growth of Third-Party Information
Return Requirements
Current Section, Added By

Year Added

6042 – Returns regarding corporate E&P Revenue Act of 1917, 39
Stat. 1000, 1003,

1917

6045- Returns of brokers, War
Revenue Act, 40 Stat. 300, 336-37

1917

6041 – Information at source, War
Revenue Act, 40 Stat. 300, 337

1917

6031- Return of Partnership Income, Revenue Act of 1918, 40
Stat. 1057,1074

1918

6032 – Returns of banks, Revenue 1936
Act of 1936, 49 Stat. 1648, 1708-09
6046 – Returns regarding foreign
corporations, Revenue Act of 1938,
52 Stat. 447, 573-74

1938

6043 – Liquidating, etc., transactions, Revenue Act of 1938, 52
Stat. 447, 516

1938

6051 – Receipts for employees,
SSA Amendments of 1939, 53
Stat. 1360, 1382-83

1939

6033 – Returns by exempt organizations, Revenue Act of 1943, 58
Stat. 21, 36-37

1943

App. 8
Current Section, Added By

Year Added

6034 – Returns by certain trusts,
Revenue Act of 1950, 64 Stat. 906,
960

1950

6044 – Returns regarding patronage dividends, Revenue Act of
1951, 65 Stat. 452, 492

1951

6036 – Notice of qualification as
executor or receiver, Internal Revenue Act of 1954, 68A Stat. 3, 744

1954

6037 – Return of S corporation,
Small Business Tax Revision Act,
72 Stat. 1606,1656

1958

6038 – Info. re foreign corporations/partnerships, 74 Stat. 1010,
1014

1960

6047 – Info. re certain trusts and
annuity plans, 76 Stat. 809, 830

1962

6048 – Info. re certain foreign
trusts, Revenue Act of 1962, 76
Stat. 960, 988

1962

6049 – Returns regarding interest, Revenue Act of 1962, 76 Stat.
960, 1055

1962

6039 – Returns regarding certain
options, Revenue Act of 1964, 78
Stat. 19, 73

1964

App. 9
Current Section, Added By

Year Added

6052 – Returns regarding groupterm life insurance, Revenue Act
of 1964, 78 Stat. 19, 37

1964

6053 – Reporting of tips, Social
Security Amendments, 79 Stat.
286, 384

1965

6057 – Annual registration,
ERISA, 88 Stat. 829, 943

1974

6058 – Info. re deferred compensa- 1974
tion ERISA, 88 Stat. 829, 945
6059 – Periodic report of actuary,
ERISA, 88 Stat. 829, 947

1974

1976
6050A – Reporting from certain
fishing boat operators, Tax Reform
Act, 90 Stat. 1520, 1707-08
6060 – Reporting from tax return
preparers Tax Reform Act, 90
Stat. 1520, 1691

1976

6050B – Returns re unemployment compensation, Revenue Act
of 1978, 92 Stat. 2763, 2777

1978

6050D – Returns re energy grants
and financing, Crude Oil Windfall
Profit Tax Act, 94 Stat. 229, 259

1980

6050E – State/local income tax refunds TEFRA, 96 Stat. 324, 603

1982

App. 10
Current Section, Added By

Year Added

6050F – Returns re social security 1983
benefits Social Security Amendments, 97 Stat. 65, 82
1983
6050G – Returns re railroad retirement benefits, Railroad Retirement Solvency Act, 97 Stat. 411,
422
6050H – Returns re mortgage interest Deficit Reduction Act, 98
Stat. 494, 684

1984

6050I – Returns re cash received
in trade or business, Deficit Reduction Act, 98 Stat. 494, 685

1984

6050J – Returns re foreclosures
. . . of security Deficit Reduction
Act, 98 Stat. 494, 687

1984

6050K – Returns re exchanges of
certain interests, Deficit Reduction Act, 98 Stat. 494, 689

1984

6050L – Returns re certain donated property Deficit Reduction
Act, 98 Stat. 494, 692-93

1984

1986
6050M – Returns re contracts
from Federal agencies, Tax Reform
Act, 100 Stat. 2085, 2747
6050N – Returns re payments of
royalties Tax Reform Act, 100
Stat. 2085, 2747

1986

App. 11
Current Section, Added By

Year Added

6050P – Returns re cancellation
of indebtedness, Budget Reconciliation Act, 107 Stat. 312, 531

1993

6050Q – Certain long-term care
benefits HIPAA, 110 Stat. 1936,
2062

1996

6050R – Returns re certain purchases of fish, Small Business . . .
Act, 110 Stat. 1755, 1763

1996

6050S – Returns re higher education tuition, Taxpayer Relief Act,
111 Stat. 788, 804

1997

6050T – Returns re health insurance costs, Trade Act of 2002, 116
Stat. 933, 962

2002

6050U – long-term care insurance
contracts, Pension Protection Act,
120 Stat. 780, 1012

2006

6050V – Returns re certain insurance contracts, Pension Protection
Act, 120 Stat. 780, 1072

2006

6050W – Returns re transaction
settlement payments, Housing . . .
Recovery Act, 122 Stat. 2654, 2908

2008

6055 – Reporting health insurance coverage

2010

App. 12
Current Section, Added By

Year Added

6056 – Employers reporting
health insurance coverage,
PPACA, 124 Stat. 119, 256

2010

6035 – Basis information reporting, 129 Stat. 433, 455

2015

6050X – Info. re certain fines, pen- 2017
alties, Tax Cuts and Jobs Act, 131
Stat. 2054, 2128
6050Y – Returns re certain life
ins. k transactions, Tax Cuts and
Jobs Act, 131 Stat. 2054, 2149

2017

App. 13
APPENDIX 4
Growth of AIA Statutory Exceptions
Exception Added Related Remedy,
Exception Added By
6212(a)
6213(a)

1926

to contest proposed deficiencies of income, estate and
gift taxes,
44 Stat. 9, 55 & 75

7426(a)

1966

to contest wrongful levy,
80 Stat. 1125, 1143

6694(c)

1976

to contest collection of Chapter 68B return preparer penalty when taxpayer pays
15% of assessed penalty and
timely files refund claim,
90 Stat. 1520 1689

7429(b)

1976

to contest jeopardy assessment,
90 Stat. 1520, 1695

6672(c)

1978

to contest proposed Chapter
68B Trust Fund Recovery
Penalty,
92 Stat. 3627, 3633

7436

1997

to contest employee status
determination,
111 Stat. 788, 1056

6015(e)

1998

to request spousal relief,
112 Stat. 685, 738

App. 14
Exception

Added Related Remedy,
Exception Added By

6330(e)(1)

1998

to contest administrative
collection decisions, as well
as underlying liability in
situations where taxpayer
had no pre-assessment
opportunity to contest
liability,
112 Stat. 685, 749

6331(i)

1998

to contest paid portion of
divisible tax,
112 Stat. 685, 759

6232(c)

2015

to contest proposed changes
to partnership returns,
129 Stat. 584, 633

